U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

January 8, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Edwin Arthur Avery v. United States, No. 19-633
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 15,
2019. The government’s response is now due, after one extension, on January 15, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including January 29, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0633
AVERY, EDWIN ARTHUR
USA

CATHERINE M.A. CARROLL
WILMER CUTLER PICKERING HALE & DORR
LLP
1875 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20006
202-663-6000
THOMAS G. SPRANKLING
WILMER CUTLER PICKERING HALE & DORR
LLP
950 PAGE MILL ROAD
PALO ALTO, CA 94034
650-868-6000
THOMAS.SPRANKLING@WILMERHALE.COM

